M.
Wi
.JK

JK

III. COVER PAGE - RULE 34

Ji.

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

DOVED BEN DOWNER,
Petitioner,
v.

CASE NO:

SECRETARY, DEPARTMENT
OF CORRECTIONS AND
ATTORNEY GENERAL, STATE
OF FLORIDA “et al.”
Respondent.

iizh

rauiNAL

PETITIONER’S PRO-SE MOTION FOR WRIT OF CERTIORARI TO
UNITED STATES DISTRICT COURT MIDDLE DISTRICT OFpLORIDA
ORLANDO DIVISION. PETITION FOR WRIT OF CERTIHIRARI

DOVED BEN DOWNER, D.C. #391900
DADE CORRECTIONAL INSTITUTION
19000 S.W. 377th STREET
FLORIDA CITY, FLORIDA 33034-6499

FILED
JUL 2 h 2020
OFFICE OF THE CLERK
SUPREME COURT. U S

M.

JS&
K

M

r

IV. QUESTION(S) PRESENTED
1.

IS SIMPLE POSSESSION UNDER F.S. 893.13(6)(A).

A LEGALLY

PERMISSIBLE RACKETEERING PREDICATE INCIDENT UNDER F.S. §
895.02(l)(a), § 895.02(l)(b)?
2. CAN A DEFENDANT BE TRIED AND CONVICTED FOR AN OFFENSE
THAT THE INFORMATION DOES NOT ALLOWS?

;■

2

LIST OF PARTIES
All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition
is as follows:
Adams, Sr. Joh. Judge, Ninth Judicial Circuit, State of Florida;
Barbour, Elaine, Judge, Ninth Judicial Circuit, State of Florida;
Bogle, Richard B., Assistant Statewide Prosecutor, State of Florida;
Conway, Anne C., Senior U.S. District Court Judge, Middle District of Florida;
Craner, A. James, Judge, Ninth Judicial Circuit, State of Florida;
Evander, Kerry J., Chief Judge, Florida Fifth District Court of Appeal;
Forrester, Eileen, Chief Assistant Public Defender, Ninth Judicial Circuit, State of
Florida;
Hall, Nora, Assistant Attorney General, State of Florida;
Kidd, Embry J., U.S. Magistrate Judge, Middle District of Florida’
Luka, Thomas B. Attorney Duval County, Florida
Miller, James T., Attorney Duval County, Florida
Orr, Janice, Attorney Lake County Florida
Orfinger, Richard B., Judge, Florida Fifth District Court of Appeal;
Sawaya, Thomas D., retired judge, Florida Fifth District Court of Appeal;
Schneider, James, Assistant Attorney General, Statewide Prosecution State of
Florida;
Strickland, Sta, Judge, Ninth Judicial Circuit, State of Florida;
Tynan, Greg A., Judge Ninth Judicial Circuit, State of Florida;
I hereby certify that no publicly traded company or corporation has an interest in
the outcome of this appeal.

6

jfc.

m

w.
TABLE OF CONTENTS
SPAGE(S):
aiE,-

OPINIONS BELOW

4

JURISDICTION

5

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED.....................

8

STATEMENT OF THE CASE

9-14

REASONS FOR GRANTING THE WRIT

15-23

CONCLUSION

23

INDEX TO APPENDICES
APPENDIX A - Order of United States Court of Appeals denying Certificate of
Appealability
APPENDIX B - United States District Court order denying haSias corpus
petition
APPENDIX C - United States District Court order denvingiiMotion of
Reconsideration
APPENDIX D - Order denying “Second Amended Motion for Post Conviction
Relief and Memorandum of Law in support thereof’

IE

3

r

It.

m.
B&-

■3KE::

£

TABLE OF AUTHORITIES CITED

sm
;V- n

CASES:

gPAGE(S):
3K5

Bradenton Group Inc. v. State, 920 So.2d 403,409-10
(Fla. 5th DCA 2007)......................................................

19

Chicone v. State, 684 So.2d 736 (Fla. 1996)

20

F.B. v. State, 852 So.2d 226 (Fla. 2003)................... ..... .

21

Harvey v. State, 617 So.2d 1144,1148 (Fla. 1st DCA 1993)

.22

State v. Guson, 724 So.2d 135 (Fla. 4th Dist. 1998).............

19

State v. Rubio, 967 So.2d 768, 779-80 (Fla. 2007)..............

19

State v. Vessler, 626 So.2d 251 (Fla. 4th DCA 1993)...........

19

U.S. v. Shenberg, 828 F.Supp. 968, 972 S.D. (Fla. 1993)

21

STATUTES OR RULES
State 895.02(3)...... ..............
State 895.02(4)....................
State 895.02(1)(B)...............
State 18U.S.C. 1961(1).......
State 21 U.S.C. 802..............
State 562.12(1).....................
State 26 U.S.C. 5001 et seg..
State 895.02(l)(a)................
Rule FI. R. Crim. P. 3.140(j)
State 893.13(6).....................
Rule Ejusdem Generis.........

15
.jg. 15,20
fH,17-18
.15, 18,21

15
16, 19,21
16
17-18
17
18-21
21

.JIE...

1
7
T

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A to the petition
and is
or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the United States district court appears at Appendix B to the petition and
is
or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix
to the petition and is
[ ] reported at
or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
court appears

The opinion of the_______________
at Appendix____to the petition and is
or,
[ ] reported at _
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

4

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was May 14. 2020.
[x ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of Appeals on
the following date: _
, a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted to and
(date) in Application
including
(date) on
No.
A
The jurisdiction of this Court is invoked under 28 U.S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix___________.
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing appears at
Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted to an
(date) in Application
including
(date) on
A
No.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

5

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
CONSTITUTIONAL
Amendment V, not to be deprive of life, liberty, or property without due process of
law.
Amendment VI, to be informed to the nature and cause of the accusation, and to
have effective assistance of counsel for his defense.
Amendment XIV (section 1) Nor shall any State deprive any person of life, liberty
or property without due process of law nor deny to any person within its
jurisdiction the equal protection of laws.
STATUTORY
Fla. Stat. § 895.02(l)(a)
Fla. Stat. § 895.02(l)(b) defined the “incidents of racketeering activity”
18 U.S.C. § 1961(1)(A)(D) The federal definition of Racketeering activity
18 U.S.C. § 1956 (a)(1) the federal money laundering statute
Fla. Stat. § 893.13 (6) simple possession

8

m
STATEMENT OF THE CASE
«=£

A. Pretrial
Petitioner was arrested on April 29, 2003 with 12 co-defendant following an
18-month investigation by several law enforcement agencies under the direction of
the Statewide prosecutor in Orlando, Florida.

The counties involved in the

investigation were Lake, Orange, and Seminole.
A 16 - count information was filed alleging money laundering, racketeering,
conspiracy to commit racketeering, and structuring to evade reporting or
registration requirement. This information was filed in the Ninth Judicial Circuit
Court in and for Orange County, Florida under case # 03-cf-5195. On September
11, 2003 co-defendant Catherine Chisem entered a plea to count seven of this
information,

structuring transactions to evade reporting or registration

requirements. On September 22, 2003, the Honorable John H. AdamMevered the
case of the remaining 11 co-defendants from Petitioner subsequently seven more
co-defendants entered guilty pleas. A sentencing hearing was set for December 1,
2003. On October 27, 2003 the State dismissed the case against Petitioner and the
remaining 4 co-defendants. The courts dismissed the case against the other co­
When the State failed to appear for

defendants except Catherine Chisem.
sentencing on December 1, 2003.

W
HF
W

9

HBL1:

mss
ter
'SE

1?
T

A revised probable cause affidavit was submitted by F.D.L.E. The State
refilled information soley against Petitioner on May 19, 2004. Petitioner as was re­
arrested on June 8 2004 and charged with racketeering, money laundering, and
structuring transactions to evade reporting or registration requirements. Count one
included 76 predicate incidents of money laundering activity relating to money
transmitter felony violations.

Beverage law enforcement violations, and drug

abuse prevention and control violations.

The State amended the information on

September 23, 2004 adding four predicate incidents to count one to wit; one
predicate incident of selling alcohol without a license and three predicate incidents
of simple possession of marijuana. Money laundering count two, and structuring
transaction to evade reporting or registration requirements count three.

Trial

counsel entered a plea of not guilty on behalf of Petitioner to the amended
information during a hearing held on October 6, 2004. The State also filed in open
court on October 6, 2004.

The State’s response to Defendants motion for

statement of particulars/statement of particulars, and State’s response to
Defendant’s motion in limine. The case went to trial on October 11, 2004 through
October 13, 2004. The State nolle prossed the structuring transaction to evade
reporting or registration requirement, count three.

10

B. Trial
The first day of trial Petitioner filed a stipulation in open court,

The

stipulation told the jury on the third day of trial that the seventy six money
transfers were done by Petitioner at his request and that Petitioner provided the
money and provided the information for the Western Union transmittal forms. In
the stipulation Petitioner admitted to the amount in excess of 320,000 was provided
by Petitioner.
The State presented 13 witnesses.
Petitioner did not testify.

No defense was presented at trial.

On October 13, 2004 Petitioner was convicted of

racketeering, count one. The jury acquittal Petitioner of money laundering count
two.

The State filed a nolle prosequi with respect to structuring transactions to

evade reporting or registration requirements count three.
Petitioner was sentenced the same day to twenty five years in the
Department of Corrections followed by five years of supervised probation.
C. Appeal

The Fifth District Court of Appeal per curiam affirmed and the mandate
issued on January 3, 2006. On March 5, 2007 on Petitioner’s behalf, private
counsel filed a petition for writ of habeas corpus alleging ineffective assistance of
appellate counsel. The petition was denied on June 7, 2007. While his state
habeas petition was pending private counsel filed a Florida Ruler of Criminal
11

Procedure 3.850 motion for postconviction relief for Petitioner on May 2, 2007.
On May 20, 2008 the state was ordered to respond to the 3.850 motion July 7, 2008
the State filed its response to the 3.850 motion on September 8, 2008 private
counsel filed a motion for permission to amend pending motion for post-conviction
relief.

On January 27, 2010 Petitioner filed a pro se motion for leave to

supplement and amend pending 3.850 and Petitioner’s notice of intent to file
petition for writ of habeas corpus pursuant to Steele v. Kehoe. On March 1, 2010
an order granting motion to amend was entered and the Court advised that since
the motion requesting leave to amend was filed outside of Rule 3.850 two year
limitation Petitioner would not be permitted to add any new grounds for relief and
may only supplement existing grounds.

Additionally, the Court advised that

because Petitioner was represented by counsel, counsel must file all pleading. The
Court would not consider any pleadings filed simultaneously by Petitioner pro se
and counsel. On April 21, 2010 counsel filed a motion for extension of time to file
amendment to pending Rule 3.850 Fla. R. Crim. P. motion. On September 7, 2011
the second amended motion for postconviction relief and memorandum of law in
support thereof was filed. The Petitioner filed the amended motion pro se. On
December 27, 2011 counsel filed a motion to adopt pro se pleading. On April 25,
2013 Petitioner filed a letter to the clerk of court requesting that the clerk file the
letter as notice of the death of his attorney James T. Miller. On August 8, 2016
12

Petitioner filed a notice of inquiry to the clerk of court requesting a status on his
pending 3.850 motion. On October 14, 2016 Petitioner filed a writ of mandamus.
On October 27, 2016 the second amended motion was summarily denied.
Petitioner appealed to the Florida Fifth District Court of Appeals which per curiam
affirmed on July 25, 2017 and mandate was issued on September 20, 2017. On
September 6, 2017 Petitioner filed the instant 28 U.S.C. petition for writ of habeas
corpus with the United States District Court Middle District of Florida Orlando
Division. The Middle District of Florida court ordered the response on October 31,
2017. November 15, 2017 notice of appearance by Robin A. Compton on behalf
of Attorney General. January 29, 2018 response to 1 petition for writ of habeas
corpus by Attorney General. February 20, 2018 motion for leave to file reply to
Respondents response by Petitioner. February 22, 2018 order granting it motion
for leave to file reply to the response. May 24, 2018 Motion for Extension of Time
to file Reply as to response. May 29, 2018 order granting Extension of Time to
file Response. June 4, 2018 Reply re 13 response to habeas petition by Petitioner.
February 7, 2019 Order: within Thirty (30) days from the date of this order
Respondents shall file a supplemental response addressing whether ground twelve
is substantial to overcome the procedural default bar. March 7, 2019 Supplemental
Response to 1 petition for writ of habeas corpus by Attorney General. April 5,
2019 Petitioner’s reply to State’s supplement response. June 5, 2019 order. The
13

Petition for Writ of Habeas Corpus (Doc. 1) is Denied July 8, 2019 motion for
reconsideration re 23.
reconsideration.

November 25, 2019 order denying motion for

December 19, 2019 Motion for Extension of Time to file

certificate of appealability by Petitioner (originally receive in the U.S.C.A. on
12/16/2019 and forwarded to USDC.) January 2, 2020 Order granting 28 motion
for extension of time to file. Petitioner shall have through January 17, 2020 to file
an application for certificate of appealability.

January 8, 2020 Motion for

Certificate of Appealability by Petitioner (entered ^/f8/2020), May 14, 2020 the
United States Court of Appeals for the Eleventh Circuit order denying Petitioner
application for Certificate of Appealability.

A petition for writ for certiorari

seeking review of a judgment of a lower court that is subject to discretionary
review by the State court of last resort is timely when it is filed with the clerk
within 90 days after entry of the order denying discretionary review.

14

REASONS FOR GRANTING THE PETITION
THIS PETITION SHOULD BE GRANTED FOR THE FOLLOWING
REASONS
Reason 1
Petitioner’s verdict was a miscarriage of justice because the jury based it’s
verdict of guilt on predicate incidents within the racketeering charge that cannot
be used to support the charge of racketeering activity as defined in the charging
information.
It was improper to allow the jury to consider predicate incidents 2, 16, 79.
and 80 because they were not legally permissible racketeering predicate incidents.
The State amended information in Count 1: Defined the racketeering
enterprise by stat. 895.02(3) Fla. Stat: Defined the pattern of racketeering activity
by 895.02 (4) Fla. Stat., and defined the incidents of racketeering activity by
895.02(1)(B)* which cross referenced to 18 U.S.C. § 1961 (1), which states, as
used in this chapter 1961(1) racketeering activity means (a) any act or threat
involving murder, kidnapping, gambling, arson, robbery, extortion, dealing in
obscence matter, or dealing in a controlled substance or listed chemical as defined
in Section 102 of the controlled substance act [21 U.S.C. 802] which is chargeable
under state law and punishable by imprisonment for more than one year. There
were no federal equivalent statutes reference in predicate incidents 2, 16, 79, and
15

>

80 as there was in the 76 money laundering predicate incidents. The charging
information specifically defined the incidents of racketeering activity by federal
standard. The referenced state law violations in predicate incident 2, 16, 79. and
80 were not sufficiently charged. Predicate incident two reference sale of alcohol
without a license, a misdemeanor under state law. Fla. Stat. 562.12(1). Also
defined in section 102 of the controlled substances means a drug of other
sustenance, or immediate precursor, including schedule I, II, III, IV. or V of part B
of this title [21 U.S.C. 812] the term does not include distilled spirits, wine, malt
beverages, or tobacco as those terms are defined or used in subtitle E of the
internal revenue code of 1954 [26 U.S.C. 5001 et seq]. predicate incident 79, while
referenced as a felony under state law was factually a misdemeanor because there
was no evidence that the 7 seeds of marijuana weighted more than twenty grams,
and predicate incidents 16, 79, and 80 referenced simple possession under state law
exclusively while the predicate incidents of possession reference felony violation.
Under the federal statute defining the incidents of racketeering activity, the felony
violations encompassing the controlled substances abuse act require proof of
dealing in the controlled substances.

Under the plain meaning of the statute,

dealing in a controlled substance requires proof of specific intent beyond simple
possession.

16

Because of the specificity with which the state charged the money
laundering predicate incidents. The omission of any reference to stat. 895.02(l)(a)
Fla. Stat. in the body of the racketeering charge in count 1 of the amended
information is presumed not to be a technical oversight nor can such an omission
be explained away as harmless given its substantive affect on the admissibility of
the evidence necessary to sustain the State burden of proof. The substantive due
pro se clause implication are inherent. Furthermore, under Florida Law, the State
may amend the information anytime before trial, see Fla. R. Crim. P. 3.140(j)
(“An information on which the defendant is to be tried, that charges an offense
may be amended on the motion of prosecuting attorney or defendant any time prior
to trial because of formal defects.”) As Petitioner counsel did file a motion in
limine prior to trial alleging that it is unclear from the information what
racketeering activity the state is alleging and counsel boldly asserted that there is
no connection between alleged predicates to the racketeering charge. And the
State’s response to said motion in limine filed in open court five days before trial
stating it is the States position that the information properly alleges that the
Petitioner was engaging in at least two incidents of racketeering activity as defined
in Florida Statute 895.02(l)(b) and if the state fails to make a prima facie case at
trial the court has the authority and obligation to grant a Judgment of Acquittal.
As the State’s Response to Defendants motion in limine filed on October 6, 2004 is
17

direct contradiction to the United States District Courts ruling in its order denying
relief.

As stated that the Respondents

mistakenly charged Petitioner with

racketeering activity defined in section 895.02(1 )(b) and had counsel moved to
dismiss the three possession of cannabis predicate incidents charged in court one
prior to trial, the State would of amended the information to charge Petitioner with
racketeering activity under section 895.02(1 )(a) as a result, Petitioner has not
demonstrated that a reasonable probability exists the outcome of trial would have
been different had counsel filed a pretrial motion to dismiss the three possession of
cannabis predicate incidents.

Petitioner pointed this out in his motion for

reconsideration to the State District Court.

This notwithstanding even if the

incidents of racketeering activity had been charged by Stat. 895.02(1)(A) and (B)
Fla. Stat., the statutory construction does not automatically make simple possession
under Stat. 893.13(6) a legally permissible racketeering predicate incident.
Statutory construction - Florida general references to racketeering activity
Florida Statute 895.02(1)(A)(40) (2004); in defining racketeering activity generally
references chapter 893, relating to drug abuse prevention and control. Compare
with 18 U.S.C. Stat. 1961 (1)(A): Racketeering activity means (a) dealing in a
controlled substance or listed chemical (as defined in Section 102 of the controlled
substance act), and 18 U.S.C. Stat 1961 (l)(d): or the felonious manufacture,
importation, receiving, concealment, buying, selling or otherwise dealing in a
18

,

controlled substance or listed chemical (as defined in Section 102 of the controlled
substances act).
Simple possession under Florida Statute 893.13(6), and sales of alcohol
without license under Florida Statute 562.12(1), are not predicates to support
(RICO) prosecution for committing crimes chargeable under provisions of the
statutes relating to racketeering activity and money laundering.
The statutory construction relating to has been construed not to encompass
every criminal act contained in the referenced statute where the criminal act does
not comport with legislative intent or pass constitutional muster in the prosecution
of a racketeering violation. State v. Rubio. 967 So.2d 768, 779-80 (Fla. 2007)
(“[S]ection 895.02(l)(a)(26), limits its predicate offenses to only those sections
that include the elements of fraud by including language.) Bradenton Group Inc, v.
State. 920 So.2d 403, 409-10 (Fla. 5th DCA 2007) violations of bingo statute
849.0931 are not punishable under the lottery or RICO statutes [(citing
895.02(1)(A)(32), Fla. Stat. (1995)]; State v. Gusow. 724 So.2d 135 (Fla. 4th DCA
1998) predicate offense relating to collection of advance fee from borrower and
loan broken found did relate to interest and usurious practices, and thus did not
constitute racketeering activity. State v. Vessler, 626 So.2d 251 (Fla. 4th DCA
1993) lewdness and assignation are not predicates to support RICO prosecution for
committing crimes chargeable under provisions of statutes relating to prostitution.
19

Based on the fact that Florida Statute 893.13(6)(a) allows the permissive
inference that if a person has exclusive possession of a thing knowledge of it’s
presence may be inferred or assumed. As explained in Chicone v. State, 684 So.2d
736 (Fla. 1996) this knowledge provides the criminal intent element necessary to
prove the act of possession. By virtue of this assumed knowledge element. Simple
possession of a controlled substance is an isolated crime. As the intent of simple
possession cannot provide the interrelatedness of one possession incident to
another neither can it infer the ongoing probability of a repeated action sufficient to
sustain an open-ended pattern of racketeering activity Cf. stat. 895.02(4) Fla. Stat.
(2004) Pattern of racketeering activity means engaging in at least two incident of
racketeering conduct that are not isolated incidents. Also because they were
committed by a single individual they could not support the charge of racketeering,
conclusively, what the legislature prohibited trough statutory construction the state
in this case is trying to circumvent by argument. The federal court has reverse
convictions when the error has substantial and injurious effect or influence in
determining the jury’s verdict. It is clear from record and the State court responses
that Petitioner is charge with multiple crimes charged as RICO in count 1 through
multiple federal money laundering predicate incidents under 18 U.S.C. stat 1956 as
the charging information in Petitioner’s case specifically defined the incidents of
racketeering activity by federal standards the state court is bound under the
20

statutory construction rule of ejusdem generis. As applying only to crimes of the
same kind as those precisely stated in the statute under the definitions as used in
chapter 18 U.S.C. stat. 1961(1) defining racketeering activity simple possession of
marijuana in violation of Florida Statute 893.13(6) nore sale of alcohol without a
license in violation of Florida Statute 562.12(1) cannot be charged as predicate
incidents under the federal RICO, state, or federal money laundering because they
were resulted in a decision that was contrary to, or involved an unreasonable
application of clearly established federal law. The State completely failed to prove
the charges of rackteering against Petitioner and this failure is fundamental error.
See F.B. v. State, 852 So.2d 226 (Fla. 2003)(The guilty verdict could not be
reached without the assistance of the alleged error or Petitioner conduct did not
legally constitute a crime.) The jury in this case found Petitioner not guilty of
money laundering since all of the crimes for money laundering for which
Petitioner had been acquitted were charged identically as racketeering predicate
incidents whatever the jury found lacking for the substantive count was necessarily
lacking for the racketeering predicate incidents. Also see U.S. v. Shenberg. 828
F.Supp. 968, 972 S.D. (Fla. 1993).

The State was collaterally estopped from

obtaining a guilty verdict as to racketeering based on predicate incidents 1-3-15,
17-78. The State court contends in their response that federal money laundering
under 18 U.S.C. 1956 and state money laundering under 896.101 are not the same
21

crime for collaterally estopped purposes. The State court claims that the federal
money laundering offense requires an interstate or foreign commerce element
absent from the Florida Statute. This lacks merits because the Florida Statute
subsumes the interstate or foreign commerce element by requiring in any way or
degree affects commerce element, which Petitioner was acquitted of in count two.
By the State’s acknowledgement that Petitioner is charged with federal
money laundering predicate incidents under 18 U.S.C. 1956 and the reasoning used
by the State in denying Petitioner’s Florida Rule of Criminal Procedure 3.850
motion the State cited to Harvey v. State. 617 So.2d 1144, 1148 (Fla. 1st DCA
1993)(finding the definition of racketeering activity does not require the state to
obtain conviction for alleged predicate incidents. It merely requires proof of any
crime which is chargeable by indictment or information under the specific
provisions of the statutes enumerated therein.)

By these facts it is clearly

established federal law that the proof of any crime which is chargeable by
indictment or information under the specific provision of the statute enumerated
therein couldn’t of been predicate incidents 2, 16, 79, or 80. Sales of alcohol
without a license or simple possession of marijuana because they do not meet the
criteria of racketeering activity as defined under the statue enumerated therein.

22

For the above reasons Petitioner was denied his 5th, 6th, and 14th,
constitutional rights of a fair trial, due process, effective assistance of counsel for
his defense, and equal protection of the laws.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
Ljcirfrl 3. ?)A (xJintK
Date:

23

